ACELA CAR PURCHASE:
Future Revenue Estimates Were Initially Overstated




                            Report No. OIG-E-2012-010 | March 28, 2012




                            DRAFT
     V     AMTRAK
       NATIONAL RAILROAD
       PASSENGER CORPORATION
                                                Office of InsRector General


Memorandum
To:                Emmett H. Fremaux, Jr., VP, Marketing & Product Development
                   Gordon L. Hutchinson, Acting Chief Financial Officer ~              F
                                                                                 ~~~~
From:              Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Date:              March 28,2012

Subject:           Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                   (Report No. OIG-E-2012-010)

Acela Express trains provide high-speed, business and first-class intercity rail
transportation on the Northeast Corridor between Washington, D.C.; New York City;
and Boston, making 188 trips between these cities during a normal week. Acela is
Amtrak's single largest source of revenue, generating about $492 million (26 percent) of
Amtrak's overall ticket revenue of about $1.9 billion for Fiscal Year (FY) 2011 from
about 3.4 million riders. Amtrak expects the demand for Acela to continue to increase,
with about 47.8 million potential riders between FY 2012 and FY 2023 generating about
$7.8 billion in potential revenue.

Amtrak is concerned that it will not be able to meet this demand with Acela's current
passenger capacity and, therefore, plans to increase the capacity of its Acela trains. An
Acela trainset consists of two power cars, one first class passenger car (44 seats), one
cafe car, and four business class passenger cars (65 seats each). Amtrak plans to increase
the business class capacity of each train by 50 percent (130 seats) by adding two new
business class cars to each train in FY 2015. As of January 12, 2012, Amtrak expected
that it will cost about $350 million to procure the 40 new cars, upgrade maintenance
facilities to accommodate the longer trains, and acquire spare parts for the new cars.
Amtrak previously stated 1 that the costs and expected revenue associated with this
acquisition would be incorporated into its FY 2012-2016 Five Year Financial Plan when
published.


1   See Amtrak's Revised FY 2011-2015 Five Year Financial Plan, June 23, 2011.
                                                                                                       2
                                Amtrak Office of Inspector General
            Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                          Report No. OIG-E-2012-010, March 28, 2012


This report discusses our analysis of the revenue projections contained in Amtrak’s
business case supporting the decision to acquire the 40 new cars. We focused on
Amtrak’s revenue projections as of August 31, 2011, but also discuss the company’s
revenue projections as of January 12, 2012, which were revised in response to briefings
we provided in October and December 2011 on our methodology and preliminary
findings.2 For a detailed discussion of our scope and methodology, see Appendix I. We
performed this evaluation in accordance with our statutory responsibilities contained in
the Inspector General Act of 1978, as amended.

AMTRAK SIGNIFICANTLY OVERESTIMATED REVENUE TO BE
CAPTURED BY THE NEW CARS
In its August 2011 projection, Amtrak overestimated the revenue that the 40 new cars
would capture. In preparing the business case for the procurement of the new cars,
Amtrak estimated that these cars would enable it to capture about $1.05 billion more in
revenue than it could with the current Acela trainsets between FY 2015 and FY 2023. In
developing this estimate, Amtrak assumed that a train that was currently sold out, on
average, on any day, on any station-to-station segment of a trip, would be sold out in
the future every day it ran for the entire length of its trip and, therefore, could not
accommodate any additional riders. According to Amtrak officials, the assumption was
made to simplify their analysis, but we questioned the validity of the assumption and
undertook our own analysis to determine the effect of that assumption on Amtrak’s
revenue estimate.3

This assumption, according to our analysis, significantly inflated the estimate of the
revenue that would be captured by the new cars. Using Amtrak’s available data on
actual ridership on Acela trains during the 12-month period between July 1, 2010 and
June 30, 2011, we found that Amtrak’s simplifying assumption significantly
overestimated the number of trains that would be sold out in the future, thereby
underestimating the number of potential passengers and associated revenue that could
be accommodated by the current Acela trainsets. This resulted in Amtrak overstating
the revenue that would be captured by the new cars by about $425 million. Figures 1
and 2 graphically depict Amtrak’s August 2011 estimate and our estimate of the
potential revenues the new cars could capture.


2 Since its original revenue estimate of about $1.4 billion in December 2010, Amtrak has revised its
estimate of the revenue attributable to the additional cars several times.
3 See Appendix I for a description of our methodology and analysis.
                                                                                   3
                              Amtrak Office of Inspector General
          Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                        Report No. OIG-E-2012-010, March 28, 2012

Figure 1. Amtrak Estimate of Revenue between FY 2012 and FY 2023
                Captured by Additional Acela Cars




Source: OIG, based on Amtrak’s analysis

  Figure 2. OIG Estimate of Revenue between FY 2012 and FY 2023
                 Captured by Additional Acela Cars




Source: OIG, based on analysis of Amtrak data
                                                                                                                4
                                 Amtrak Office of Inspector General
             Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                           Report No. OIG-E-2012-010, March 28, 2012

We discussed our methodology and preliminary findings with Amtrak officials in
October and December 2011. Since then, Amtrak has eliminated its simplifying
assumption and recalculated its revenue estimate based on actual ridership for
individual trains in a manner similar to ours. Amtrak’s revised methodology appears to
have addressed our concerns. Amtrak also revised some of its other assumptions about
ridership and ticket price growth, and extended the estimate of the life of the new cars
that was stated in its February 2011 Fleet Strategy4 from FY 2023 to FY 2025.



CONCLUSIONS
We commend Amtrak for revising its methodology and incorporating a more detailed
approach to estimating the revenue captured by the additional cars. Amtrak’s
experience in developing the revenue estimate emphasizes the importance of utilizing a
process that accurately considers the current capacity of the existing fleet when
analyzing the benefit of major procurements to expand the capacity of the fleet. It also
highlights the need to ensure that capital investment decisions are consistent with
financial and strategic plans.



RECOMMENDATIONS
To incorporate lessons learned from developing the estimate of the revenue attributable
to the 40 Acela cars and ensure that the final revenue estimate and life of the cars are
integrated into Amtrak’s future budgeting and planning decisions, we recommend that
the

1. Vice President, Marketing & Product Development, develop a standard framework
   for explicitly incorporating capacity constraints into future revenue estimates.

2. Chief Financial Officer ensure that the revised revenue projections and other
   financial data for the new cars are integrated into the next version of the Five Year
   Financial Plan.




4See Amtrak Fleet Strategy: Building a Sustainable Fleet for the Future of America’s Intercity and High-Speed Rail
Passenger Railroad, February 2011.
                                                                                         5
                              Amtrak Office of Inspector General
          Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                        Report No. OIG-E-2012-010, March 28, 2012

3. Chief Financial Officer integrate the revised retirement date for the current Acela
   trainsets and new cars into the next revision of Amtrak’s Fleet Strategy.




MANAGEMENT COMMENTS AND OIG ANALYSIS
In commenting on a draft of this report, management agreed with our
recommendations and committed to incorporating capacity constraints, as appropriate,
into future revenue estimates for major procurements of equipment. Management also
stated that the results of the business case for the purchase of the 40 Acela cars have
been included in budgeting and planning documents. These actions are responsive to
our recommendations.

Amtrak’s letter commenting on the draft report is reprinted as Appendix II.

                                           ---

Thank you for your cooperation during the course of this evaluation. If you have any
questions, please contact me (calvin.evans@amtrakoig.gov, 202.906.4507) or Jason
Venner, Senior Director, Inspections and Evaluations (jason.venner@amtrakoig.gov,
202.906.4405).



cc:   Joseph H. Boardman, President & CEO
      Donald A. Stadtler, Jr., Acting Vice President, Operations
      Stephen Gardner, VP, NEC Infrastructure and Investment Development
      Matthew F. Hardison, Chief, Sales Distribution and Customer Service
      Sharyn Seitz, Assistant Vice President, Financial Planning
      Jessica Scritchfield, Senior Director, Internal Controls/Audit
                                                                                       6
                              Amtrak Office of Inspector General
          Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                        Report No. OIG-E-2012-010, March 28, 2012

                                      Appendix I

                          Scope and Methodology
This report discusses our analysis of the revenue projections contained in Amtrak’s
business case supporting the decision to acquire the 40 new Acela cars. During the
course of this evaluation, we learned that Amtrak was planning to apply for a loan in
early 2012 from the Federal Railroad Administration to fund this acquisition. Due to the
time-sensitive nature of the loan application, we focused our review on Amtrak’s
revenue projections as of August 31, 2011, and decided to report on the matter now. We
performed our work from July 2011 through January 2012.

To address our objective, we obtained and reviewed several versions of Amtrak’s
revenue projections and supporting data files from December 2010 through January
2012. We discussed with officials from Amtrak’s Marketing and Finance departments
their roles and responsibilities in developing the methodology used for projections and
how the methodology changed over time. We determined that the data in the August
2011 revenue estimate were reliable for the purposes we used them for in the evaluation
by verifying that these data were consistent with Amtrak’s publicly-released annual
ridership and revenue statistics. To analyze the estimate, we compared future revenue
projections against past trends and reviewed assumptions of potential changes affecting
those trends. We also reviewed Amtrak’s criterion for attributing revenue to the
additional cars, and then analyzed how it applied the criterion to train ridership
statistics. In so doing, we determined that the methodology used in August 2011 to
project revenue overstated the number of Acela trains that were sold out between
July 1, 2010, and June 30, 2011.

To determine the significance of Amtrak’s assumption about revenue, we developed a
different methodology to estimate the revenue that the additional cars could capture.
We started with the actual ridership on the peak segment of each individual train trip
between July 1, 2010, and June 30, 2011. If Amtrak estimated that a train, on average,
turned passengers away during this period, we added this estimate to the peak-segment
passenger count. We then projected the future demand through FY 2023 using Amtrak’s
2.3-percent annual ridership growth estimate. We calculated the number of passengers
on each trip that the existing Acela trainsets could accommodate, the number of
passengers who could be accommodated only with the additional cars, and the number
of potential passengers that would exceed the capacity of the additional cars, to
determine when demand would exceed current and future capacity. To estimate the
revenue captured by the additional cars in each year, we multiplied each of the three
                                                                                                   7
                                Amtrak Office of Inspector General
            Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                          Report No. OIG-E-2012-010, March 28, 2012

categories by the expected ticket price. We compiled the totals for each year to calculate
the annual revenue figures.

Figure 3 illustrates the demand portion of our methodology using an actual 4-day
sample of riders on Train 2172—the weekday 4pm departure from Washington to New
York City—between Monday, July 26, 2010, and Thursday July 29, 2010. The Monday
train will not exceed its current capacity through FY 2023. The Tuesday train will
exceed its current capacity in 2017, but will not exceed the additional capacity of two
extra cars by FY 2023. Demand for the Wednesday train currently exceeds capacity by
three passengers, and therefore could immediately use additional capacity, but still will
not exceed the additional car capacity by FY 2023. Lastly, the Thursday train
substantially exceeds its current capacity and future demand will exceed the additional
seats provided by the two additional cars.

        Figure 3. OIG Methodology for Projecting Ridership Growth




Note: Sample data; actual business-class peak-segment riders for Train 2172 for July 26–29, 2010
Source: OIG analysis of Amtrak Marketing data as of 9/20/2011.
                                                                                          8
                              Amtrak Office of Inspector General
          Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                        Report No. OIG-E-2012-010, March 28, 2012

We adjusted our methodology to consider other factors. This included adjustments for
holidays, passengers buying tickets in business class because first class was sold out,
other Amtrak trains recapturing revenue from passengers who may spill over from
sold-out Acela trains, and potential additional revenue from non-peak-segment trips.

We performed this work in accordance with government Quality Standards for Inspection
and Evaluation and our statutory responsibilities contained in the Inspector General Act
of 1978, as amended.
                                                                             9
                        Amtrak Office of Inspector General
    Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                  Report No. OIG-E-2012-010, March 28, 2012

                                Appendix II

COMMENTS FROM AMTRAK’S ACTING CHIEF FINANCIAL
              OFFICER AND VP,
    MARKETING AND PRODUCT DEVELOPMENT
                                                                         10
                    Amtrak Office of Inspector General
Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
              Report No. OIG-E-2012-010, March 28, 2012
                                                                               11
                          Amtrak Office of Inspector General
      Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                    Report No. OIG-E-2012-010, March 28, 2012

                                  Appendix III

                           ABBREVIATIONS
FY       Fiscal Year

OIG      Office of Inspector General
                                                                                   12
                              Amtrak Office of Inspector General
          Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                        Report No. OIG-E-2012-010, March 28, 2012

                                      Appendix IV

                                TEAM MEMBERS
Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Jason Venner, Senior Director, Inspections and Evaluations

Timothy Wells, Principal Operations Analyst
                                                                                         13
                              Amtrak Office of Inspector General
          Acela Car Purchase: Future Revenue Estimates Were Initially Overstated
                        Report No. OIG-E-2012-010, March 28, 2012

           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission          Amtrak OIG’s mission is to
                                  conduct and supervise independent and objective
                                  audits, inspections, evaluations, and investigations
                                  relating to Amtrak programs and operations;
                                  promote economy, effectiveness, and efficiency within
                                  Amtrak;
                                  prevent and detect fraud, waste, and abuse in Amtrak's
                                  programs and operations;
                                  review security and safety policies and programs; and
                                  review and make recommendations regarding existing
                                  and proposed legislation and regulations relating to
                                  Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                              Web:       www.amtrakoig.gov/hotline
                              Phone:     800-468-5469

Congressional and             E. Bret Coulson, Senior Director
Public Affairs                Congressional and Public Affairs
                              Mail:      Amtrak OIG
                                         10 G Street, N.E., 3W-300
                                         Washington, DC 20002
                              Phone:     202-906-4134
                              Email:     bret.coulson@amtrakoig.gov

s
